IN THE SUPREME COURT OF THE UNITED STATES

No. 19A____
HANNAH P., APPLICANT
v.
JOSEPH MAGUIRE, ACTING DIRECTOR OF THE OFFICE OF
THE DIRECTOR OF NATIONAL INTELLIGENCE

CERTIFICATE OF SERVICE

I, Donald Burke, counsel for applicant and a member of the
Bar of this Court, certify that, on September 13, 2019, one copy
of the Application for an Extension of Time Within Which to File
a Petition for a Writ of Certiorari in the above-captioned matter
was

sent,

by

third-party

commercial

carrier

for

delivery

overnight and by electronic mail, to the following counsel:
Noel J. Francisco, Esq.
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue NW, Room 5616
Washington, DC 20530
SupremeCtBrief@usdoj.gov
I further certify that all parties required to be served
have been served.

Donald Burke

